                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General


                                                                fEB - 6 2013


UNCLASSIFIED

MEMORANDUM

TO:           MED ~ Gary D. Penner, M.D.

FROM:         OIG ~ Harold W. Geisel    .r
                                          /ie,
                                           \;-4/ ,
                                             I

SUBJECT:       Report on Audit of Office of Medical Services Contracting Practices for
               Continuing Medical Education (AUD-HCI-13 -1 9)

                                             Summary

On May 7, 2012, the Oftice ofinspector General (OIG) received an anonymous hotline
complaint alleging that the annual Office of Medical Services (MED) continuing medical
education (CME) conferences held in "exotic locations" were a waste of U.S. taxpayers' dollars
and unnecessary, given the increase in virtual and/or online opportunities. In addition, the
complainant suggested that OIG determine whether the contract bidding for the CME
conferences was open and fair, since one vendor was used "year-after-year."

OIG conducted this audit to determine whether MED had a valid requirement to sponsor CME
conferences. In addition, OIG determined whether the site selection process and contracting
practices were in accordance with applicable Federal Acquisition Regulation (FAR) and
Department of State (Department) guidance. (The scope and methodology for this audit are in
Attachment 1.)

OIG found that MED had a valid requirement to sponsor CME conferences from 2007 to 20 II to
fulfill traini ng requirements for medical personnel. CME conferences provided overseas staff
with required training in a cost-effective manner that could not be derived by other means.
Specifically, MED conferences focused on medical issues unique to the Foreign Service and
provided for MED-specific requirements.

OIG determined that contracting practices for conveyance of the CME curricula were completed
in accordance with the FAR and Department guidance. However, OIG could not determine
whether the process for se lecting CME conference locations was completed in accordance with
Department guidance because MED did not have procedures in place to document its site
selection process.

OIG al so could not determine whether contracts for logistical support for the venues for
conferences held prior to the 20 II conferences, except for the 2009 conference held in Hawaii,

                                       UNCLASSIFIED
                                              UNCLASSIFIED


were awarded in accordance with the FAR and Department guidance. This occurred because,
before 20 II, contracts for logistical support for the venues were awarded at posts that had hosted
the conferences or at a regional procurement center, and MED did not maintain contract
documentation for those contract awards in a central location.

MED, on OIG's behalf, requested the contract files from the various posts that had hosted CME
conferences, but MED was unable to obtain the complete contract files. MED did provide OIG
with funding documentation, purchase orders, and emails for the 2007 to 20 I 0 CME contracts
for logistical support for the venues hosted by the overseas posts. However, without the
complete contract files, OIG was not able to determine whether the contracts for logistical
support of the CME conferences were awarded in accordance with the FAR and Department
guidance.

OIG recommended that MED implement procedures that require documentation and retention of
site selection for CME conferences in accordance with the Foreign Affairs Manual (FAM)
(14 FAM 533.4).

Since December 20 I 0, the Bureau of Administration, Office of Logistics Management, Office of
Acquisitions Management (AiLMlAQM), has awarded the contracts for logistical support for the
venues for the CME conferences. OIG found that the logistical support contracts awarded by
AlLMlAQM for the 2011 conferences in Singapore, Republic of Singapore, and Istanbul,
Turkey, and for the 2009 conference in Hawaii were sufficiently documented and complied with
the FAR and Department guidance. Because the issue pertaining to contract documentation has
been corrected, OIG is not making a recommendation on this issue

OIG provided a draft of this report to MED in January 2013. In its January 25, 2013, response
(see Attachment 2) to the draft report, MED stated that it would comply with the provisions of
the FAM stated in Recommendation I. Based on the response, OIG considers the
recommendation closed.

                                                  Background

The stated mission of MED is "to safeguard and promote the health and well-being of America's
diplomatic community." MED provides health care to U.S. Government employees and their
families who are assigned to embassies and consulates worldwide. MED also advises the
embassies and Department management about health issues throughout the world. MED does
not provide medical services to u.S. citizens abroad who are not affiliated with the U.S.
Government. However, MED does collaborate with the Bureau of Consular Affairs to ensure
that appropriate medical assistance is obtained for those U.S . citizens in need.

As of August 20, 2012, MED had 86 Regional Medical Officers, 74 Nurse Practitioners, 34
                                                          1
Physician Assistants, and 40 to 60 Locally Employed Staff. In accordance with
         2
the FAM, a medical professional must maintain a current license and a board certification to

I"Locally Employed Staff' is the general term used for Foreign Service nationals as well as for some U.S. citizens
who ordinarily reside in the host country and are thus subject to its labor laws.
216 FAM 113, "Medical Components of the Office of Medical Services."
                                                           2
                                              UNCLASSIFIED
                                             UNCLASSIFIED


remain employed by the Department. Most state licensing authorities require physicians to
complete a certain number of hours of accredited CMEs within prescribed timeframes to
maintain their medical licenses. Hospitals and other institutions may impose additional CME
requirements for physicians who practice at their facilities. To fulfill their license and
certification requirements and to stay abreast of the growing array of diagnostic and treatment
options, MED personnel continually update their technical knowledge and skills through CME
learning forums.

                                             Results of Audit

Requirement for CME Conferences

OIG found that MED had a valid requirement to sponsor CME conferences from 2007 to 20 II to
fulfill training requirements for medical personnel. Because ofthe nature of the Department's
worldwide coverage, MED personnel often work in austere environments and often do not have
the resources or facilities that are available to stateside medical personnel. Most available
medical training assumes access to modern medical facilities and resources, so it is often
necessary for MED to tailor its CME curricula based on specific needs within the Department' s
environment. MED develops an annual curriculum based on input from posts regarding ongoing
medical situations and MED's 5-year CME plan and typically hosts two conferences each year
using the same curriculum to accommodate geographically dispersed personnel worldwide. 3

        Training Requirements for Medical Personnel

The CME conferences offer medical professionals required training and provide additional
benefits not obtained through other available training opportunities. Although not every state or
medical specialty requires CME conferences to be held annually, most states or medical
specialties generally require varying numbers of CME credits either on an annual or a biannual
basis. The medical professional is primarily responsible for obtaining CME credits to maintain
certification and licensing.

MED maintains a 5-year CME plan to assist its medical professionals in obtaining CME credits
to retain licensure and meet credentialing requirements, maintain professional competency, and
learn a new skill. For example, various Life Support re-certifications need to be performed on a
regular basis and are included in the plan. CME conferences focus on medical issues unique to
the Foreign Service and provide for MED-specific requirements, but the conferences do not
provide sufficient CME credits to maintain a license or certification for all personnel. MED



3 At the outset of this review, the Office of Management and Budget (OM B), on May 11 , 2012, issued Memorandum
M-12-12, Promoting Efficient Spending to Support Agency Operations. This memorandum directed executive
branch agencies to reduce costs immediately in several areas , including travel and conferences. The memorandum
also imposed new conference approval and reporting requirements. This report evaluates MED CME learning
forums and conferences held prior to the effective date of the memorandum. Therefore,. the conferences that OIG
evaluated were not subject to the cost reduction, approval, and reporting requirements of the OMB memorandum.
The Department issued guidance in August 2012 incorporating these requirements, but the FAM has not been
updated to reflect that guidance.
                                                          3
                                            UNCLASSIFIED
                                                                    UNCLASSIFIED


personnel must personally arrange and pay for other training if needed to fulfill their certification
and licensing requirements.

MED's Director of Foreign Service Health Practitioners stated that annual training provides
stability as well as an opportunity for the medical professionals to meet in person. According to
this official, those benefits could not be obtained through other training formats such as online
courses or conferences hosted for individuals by other organizations.

            Cost Effectiveness of CME Conferences

OIG found that it was cost effective for MED to sponsor CME conferences. Specifically, from
2009 through 2011 , CME conference costs ranged from $108,754 to $357,943, with costs per
attendee ranging from approximately $272 to approximately $1 029,4 as shown in Table I.

Table 1 MED CME Conference Dates, Locations, and Costs for 2007- 2011
                                                                                                          Cost Per
    Year                            Dates                              Locations            Costa         Attendee
                                                               Singapore, Republic of
                February 16-25
    2011                                                       Singapore
                                                                                          $343,436           $695
                March 30- April 14                             Istanbul, Turkey
                January 27- February 5                         Bangkok, Thailand
    2010                                                                                  $357,943         $1029 b
                April 14- May 21                               Berlin, Germany
                February 9- 13                                 Hawaii, United States
    2009        March 2-5                                      Miami, United States       $108,754           $272
                April 29-May 8                                 Lisbon, Portugal
                February 11- 14                                Miami, United States
                                                               Singapore, Republic of
    2008        February 27-March 6
                                                               Singapore                Not Available c 1N0t Availablec
                May 1-8                                        Vienna, Austria
                January 17-26                                  Bangkok, Thailand
    2007        February 12- 15                                Panama City, Panama
                                                                                        Not Availablec 1N0t Availablec
                March 26- 29                                   Rome, Italy
:)ource:   Vi   ana   YSI S   or   MeU LMC   locatIons ana costs.

a Cost includes the conveyance of curriculum and logistical support for the venue, but it does not include lodging.
b Cost was calculated for 9 days using all available information regarding logistical support costs for the venue.
C Contract documentation was not available to calculate and verify the cost of the eME conference or the cost per

attendee.




4Cost-peT-attendee calculation did not encompass 2007 and 2008 because MED was unable to provide an adequate
breakdown of associated costs in order for OIG to calculate the cost per attendee.
                                                                          4
                                                                    UNCLASSIFIED
                                             UNCLASSIFIED


The costs shown in Table I included the conveyance of the CME curriculum and logistical
support costs for the venues, such as rental of conference rooms and audiovisual support, but
these costs did not include participant room accommodations.

OIG did not include travel and per diem costs in its analysis of cost effectiveness because these
costs would be paid by MED whether participants attended a MED-sponsored CME conference
or a CME conference sponsored by another organization.

OIG reviewed continuing education conference information from the American Academy of
Family Physicians, Harvard Medical School, and Temple University and determined that typical
registration fees for comparable conferences within the medical field ranged from $900 to $1,500
per attendee. For example, the registration fee for a 4-day conference titled "Skin Problems and
Diseases," presented by the American Academy of Family Physicians, was $895 for its
members. Also, the registration fee for a 5-day conference titled "Office Practice of Primary
Care Medicine," presented by Harvard Medical School, was $1,500. Seven other 4- and 5-day
conferences orG reviewed were within this range.

OIG concluded that annual MED-sponsored CME conferences helped ensure that medical
personnel were trained in specific skills that MED deemed essential for the personnel ' s overseas
mission while assisting MED personnel in fulfilling their professional CME requirements. In
addition, the custom-designed curriculum fulfilled the unique requirements of MED personnel
that other CME forums did not provide.

Site Selection for CME Conferences

OIG found that MED's site selection process for the CME conferences was not properly
documented. Although MED staff members were able to fully explain the conference site
selection process, there was no formal documentation demonstrating that the staff members had
followed proper site selection procedures prescribed by the FAM. 5 This lack of formal
documentation occurred because MED did not have procedures in place that required the site
selection process to be documented and retained. As a result, MED could not demonstrate that
its site selection process was in accordance with Department guidance.

        Department Guidance for Site Selection

According to the FAM,6 when selecting conference locations, the authorizing officer should
avoid conference sites that might appear to be extravagant to the public. The FAM7 further
states that a minimum of three alternative sites must be selected and that each considered site
should be selected based on the belief that it would result in lower overall conference costs and
conference attendees' travel costs. The office should then "survey the cost of conference
facilities at each of the considered sites" and determine the potential cost to the U.S . Government
for each of the alternative sites. The authorizing officer should document the cost of each
alternative conference site and retain a record ofthe documentation for every conference

s 14 FAM 533.4, "Conference Travel."
• 14 FAM 533.4·2, "Conference Site."
7 14 FAM 533.4-3a-c, "Conference Site Selection Process."
                                                  5
                                             UNCLASSIFIED
                                       UNCLASSIFIED


held. The authorizing officer must also "make the documentation available for inspection by the
Office of Inspector General (OIG), or for other interested parties."

       Site Selection Process Undocumented

MED personnel are geographically dispersed throughout the world, and according to MED
officials, MED chooses conference locations to accommodate personnel serving in the eastern
and western parts of the world. For example, locations such as Singapore and Bangkok are
advantageous locations for personnel geographically located in the east, whereas Lisbon,
Portugal, and Berlin, Germany, are advantageous for those geographically located in the west.

MED solicits possible location sites for CME conferences from various posts located in the
eastern and western parts ofthe world. Once MED receives notification that a post is willing to
host a conference, the CME Planning Committee, along with CME Programs, evaluates possible
locations based on factors such as travel distance and costs for the attendees, post support
capabilities, security, adequate meeting facilities, and per diem rates. The committee comprises
MED's Executive Director, MED's Deputy Executive Director, and the Director of Foreign
Service Health Practitioners. The planning committee then presents the information to senior
management to make the final decision.

MED officials acknowledged that they did not keep records of the decision-making process
when choosing conference locations. Therefore, OIG could not verify that the conference
selection process followed Department guidance or the aforementioned process.

       Management Actions Taken

Subsequent to the announcement ofthis audit, MED management stated that they realized that
they were not documenting site selection in accordance with Department guidance, and they
subsequently developed procedures requiring documentation of the site evaluation and the
decision-making process. OIG reviewed the new process for selecting CME conference sites and
determined that this new process, if followed, would comply with Departmental guidance.
However, as of November 2012, the end ofOIG's fieldwork, the process had not been fully
implemented.

       Recommendation 1. OIG recommends that the Office of Medical Services finalize and
       implement procedures that require documentation and retention of site selection for
       continuing medical education conferences in accordance with the Foreign Affairs Manual
       (14 FAM 533).

       Management Response: MED "acknowledge[ d]" the absence of formal documentation
       demonstrating that staff members had followed prescribed site selection procedures.
       MED stated, however, that it had "formalized" the conference site selection procedure,
       codifYing it as "an ISO 900 I MED policy document (#5004)." MED stated that this
       procedure would consider at least three alternative sites and would base site selection to
       "result in lower overall conference costs and conference attendees' travel costs." MED


                                                6
                                       UNCLASSIFIED
                                            UNCLASSIFIED


        further stated these procedures "require documentation and retention" of site selection for
        CME conferences in accordance with applicable provisions of the FAM.

        OIG Reply: Based on MED's response and OIO's review of the formalized policy, OIO
        considers the recommendation closed.

Contracting Practices for CME Conferences

oro found that contracting practices for conveyance ofthe CME curricula were completed in
accordance with FAR and Department guidance. However, oro could not determine whether
contracts for logistical support for the conference venues prior to the 2011 conferences, except
for the 2009 conference held in Hawaii, were awarded in accordance with the FAR and
Department guidance. oro could not make this determination because, before 2011, contracts
for logistical support for the venues were awarded at posts that had hosted the conferences or at a
regional procurement support center, and MED did not maintain documentation for those
contract awards in a central location. As a result, 010 could not determine whether the contracts
for logistical support for the CME conference venues were awarded in accordance with the FAR
and Department guidance.

        Federal and Department Contracting Guidance

MED uses contractors to provide training to its medical staff. For each CME conference, MED
awards two types of contracts: (I) a contract for the conveyance of the CME curriculum and (2)
a contract for the logistical support for the venue.

The Foreign Affairs Handbook (FAH)8 states the following:

        The U.S. Oovernment's policy is to obtain maximum competition consistent with
        the nature of the acquisition. Depending on the type of requirement, there are
        various methods used to obtain prospective sources under a competitive situation.
        The requirements and contracting offices should be jointly interested in assuring
        that the U.S . Oovernment obtains adequate competition through the solicitation of
        bids or offers from as wide a range of sources as possible.

Contracting for products and services can be accomplished by using either full and open
competition or sole source contracting. Sole source contracting is a noncompetitive purchase or
procurement process accomplished after soliciting and negotiating with only one source, thus
limiting competition. According to the FAR,' contracting without providing for full and open
competition is permitted when services required by the agency are available from only one
responsible source or when there is an unusual and compelling urgency authorized or required by
statute, national security, or public interest. Written justifications and approvals must be
provided. Furthermore, the FAR 10 states, for a proposed contract exceeding $100,000 but not

s 14 FAH.2 H-412. "Publicizing Requirements."
' FAR 6.302-1 , "Other Than Full and Open Competition."
 10 FAR 13.501(a)(2), "Test Program for Certain Commercial Items." Amount was changed to $650,000 in FAC-5-
45, October 1, 2010
                                                     7
                                            UNCLASSIFIED
                                                     UNCLASSIFIED


exceeding $550,000, that the contracting officer' s certification that the justification is accurate
and complete to the best of the contracting officer's knowledge and belief will serve as approval
unless a higher approval level is established in accordance with agency procedures.

Contracting for Conveyance of the CME Curriculum

OIG found that MED properly followed acquisition regulations and used sole source justification
in awarding contracts for conveyance of the CME curricula from 2007 to 2011. Because MED
selected the CME curriculum providers based on planned training subjects for a particular year,
as the curriculum subjects changed, the CME providers who were selected to convey the
curriculum also changed.

From 2007 to 201 I, MED used five CME providers to convey curricula at 13 CME conferences.
Three of the five CME providers were Government organizations, and two were private
organizations. The CME providers and the year and location of the conferences are in Table 2.

                               '-rIon Mthd
Ta ble 2 CMEP rOVl'd ers, A cqulsl     e 0 ,an d C on ~erence L oca t IOns
                                                                      '    ~or 2007- 2011
                                                                    Acquisition        Conference
Year                      CME Provider                               Method             Location
                                                                                  Singapore, Republic
                                                               Sole Source
 2011      Cleveland Clinic'                                                      of Singapore
                                                               Contract
                                                                                  Istanbul, Turkey
                                                                nteragency
           Uniformed Services University of
                                                               Acquisition
           Health Sciences (USUHS)b                                               Bangkok, Thailand
 2010                                                          Agreement
                                                                                  Berlin, Germany
           University of Minnesota, Dept. of                   ~ole Source
           Emergency Medicine'                                 r'ontract
                                                               Interagency        Hawai i, United States
           Uniformed Services University of
 2009                                                          Acquisition        Miami, United States
           Health Sciences (USUHS)b
                                                               Agreement          Lisbon, Portugal
                                                                                  Miami, United States
                                                               nteragency
           Uniformed Services University of                                       Singapore, Republic
                                                               Acquisition
           Health Sciences (USUHS) b                                              of Singapore
                                                               Agreement
 2008                                                                             Vienna, Austria
                                                                                  Singapore, Republic
           Centers for Disease Control and
                                                               Email agreement    of Singapore
           Prevention (CDC)b
                                                                                  Vienna, Austria
           University of Minnesota,                                               Bangkok, Thailand
                                                               Sole Source
           Department of Emergency                                                Panama City, Panama
                                                               Contract
           Medicine b                                                             Rome, Italy
 2007
                                                               Military
           Armed Forces Medical Examiner                                        Bangkok, Thailand
                                                               nterdepartmental
           System (AFMES)b                                                      Rome, Italy
                                                               Purchase Request
Source. OIG analYSIS of MED eMf prOVIders and acqUISItIOn method.
aprivatc organization .
bGovernment organization.

                                                          8
                                                     UNCLASSIFIED
                                        UNCLASSIFIED


For government organizations, MED used a military interdepartmental purchase request, an
email agreement, or interagency acquisition agreements to obtain the services ofthe CME
provider. The three contracts that were executed by AlLMIAQM for MED with the private CME
providers were sole source contracts. MED's legal advisers vetted two of the sole source
justifications for the awards. However, OIG determined that the justifications and approvals for
all three sole source contracts were appropriate and that the contracts had been awarded in
accordance with the FAR. II •12

The Cleveland Clinic, a private organization, was contracted to convey the CME curriculum in
20 II. MED awarded, through AlLMlAQM, a sole source contract to the Cleveland Clinic
Health System to provide specialized CME training and education to foreign and domestic MED
health practitioners. According to the contract justification and approval documentation, MED
determined that because the Cleveland Clinic receives most of the Department's patients who
undergo medical evacuations from overseas, it was a logical choice to fulfill the Department's
unique CME requirements. Moreover, when Cleveland Clinic trainers conveyed the CME
curriculum, they were familiar with patient histories and offered training specifically designed
for the environment in which Department medical personnel operate.

MED also awarded sole source contracts to the University of Minnesota for the conveyance of
the CME curricula in 2007 and 2010 . According to contract justification and approval
documentation, MED performed a nation-wide search for an emergency medicine training
program that would meet the unique needs of the Department health care providers who are often
stationed in remote areas and who often do not have ready access to complex life support
equipment and facilities. The University ofMinnesola' s Comprehensive Advanced Life Support
(CALS) program was designed to train rural physicians and other health care providers to
function in austere environments under a wide range of physical conditions. The CALS program
was the only program found to provide the level of training needed by Department medical
providers. According to MED management, no other organization in the country was or is even
now prepared to provide or is capable of providing CALS training that will match CALS
specifications and leverage MED's large investment in the supplies and equipment that support
MED's CALS-trained health care providers in the field.

           Contracting for Logistical Support for the Venues

OIG could not determine whether contracts awarded for logistical support for venues prior to the
2011 conferences, except for the 2009 conference held in Hawaii, were awarded in accordance
with FAR and Department guidance.

From 2007 to 2011, 13 contracts were awarded for logistical support for the venues, as shown in
Table 3.




11   Ibid.
12   FAR 6.302- 1.
                                                9
                                        UNCLASSIFIED
                                                UNCLASSIFIED


Table 3 Logistical Support Contracts Awarded for CME Conferences for 2007- 2011
Year           Dates                   Locations            Awarded Bv
                               Singapore, Republic of
       February 16--25
201 I                          Singapore
                                                      VvLMlAQM
       March 30--April 14      Istanbul, Turkey
         January 27- February 5           Bangkok, Thailand        Embassy Bangkok
2010
         April 14--May 2 I                Berlin, Germany          Embassy Berlin
         February 9- 13                   Hawaii, United States    AlLMlAQM

                                                                   Regional Procurement
         March 2- 5                       Miami, Untied States
2009                                                               Support Center, Florida


         April 29-May 8                   Lisbon, Portugal         Em bassy Lisbon


                                                                   Regional Procurement
         February 11-14                   Miami, United States
                                                                   Support Center, Florida

2008
         February 27-March 6              Singapore, Republic of   Embassy Singapore
                                          Singapore
         May 1- 8                         Vienna, Austria          Embassy Vienna
         January 17-26                    Bangkok, Thailand        Embassy Bangkok
2007     February 12-5                    Panama City, Panama      Embassy Panama
         March 26--29                     Rome, Italy              Embassy Rome
                                           ..
Source: OIG analySIs ofMED CME venue logiStIcal support costs.

Since December 2010, AlLMlAQM has awarded the logistical support contracts for the venues
for the CME conferences. OIG found that the logistical support contracts awarded by
AlLMlAQM for the 2009 Hawaii conference and the 201 I conferences had been sufficiently
documented and complied with the FAR and Department guidance. However, OlG was unable
to obtain complete contract file documentation for the 10 remaining logistical support contracts
for the venues because those contracts were awarded at posts that had hosted the conference or at
a regional procurement center, and MED did not maintain those files in a central location.

MED, on OlG's behalf, requested the contract files from the various posts that had hosted the
CME conferences, but MED was unable to obtain the complete contract files. MED did provide
OIG with funding documentation, purchase orders, and emails for the 2007 to 2010 CME
contracts for logistical support for the venues hosted by the overseas posts. However, without
the complete contract files, OIG was not able to determine whether the contracts for logistical
support of the CME conferences were awarded in accordance with the FAR and Department
guidance.


                                                     10
                                                UNCLASSIFIED
                                        UNCLASSIFIED


 Since AILMlAQM is now responsible for awarding contracts for logistical support for the
venues and the files will be maintained in one location, OIG considers the issue corrected and is
therefore not making a recommendation on this issue.

Based on MED's response and supporting documentation provided, OIG considers
recommendation I closed. No further response is required.

OIG incorporated your comments as appropriate within the body ofthe report and included them
in their entirety as Attachment 2.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
               (b)(2)(b)(6)
at (202) 663                or by email at(b)(2)(b)(6)@state.gov orDeniseColchin.DivisionDirector.at
          (b)(2)(b)(6)
(703) 284              or by email at(b)(2)(b)(6)@state.gov.

Attachments: As stated.

cc: MED/EX - Joseph A. Kenny
    MEDIEX - AssefaX. Kidane
    AlEX - Patricia Popovich
    AILMlAQM - Cathy J. Read




                                                 11
                                         UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                 Attachment 1
                                 Scope and Methodology

The Department of State (Department), Office of Inspector Oeneral (010), Office of
Audits, conducted this audit to evaluate whether the Department's Office of Medical Services
(MED) had a valid requirement to sponsor continuing medical education (CME) conferences. In
addition, 010 determined whether the site selection process and contracting practices were in
accordance with applicable Federal Acquisition Regulation (FAR) and Department guidance.

The audit was performed from July to November 2012 primarily at MED and at the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(NLMlAQM), in Washington, DC.

To obtain background information, 010 researched and reviewed Federal laws and regulations,
including the FAR. OIG also reviewed Department policies and additional guidance related to
conference site selection and CME requirements, including the Foreign Affairs Manual (FAM),
the Foreign Affairs Handbook (FAH), and medical licensing and certification guidelines.

010 interviewed officials from MED and NLMI AQM to gain an understanding of CME
requirements, strategies, processes, and guidance for the award and administration of contracts
for CME conferences. 010 also researched the Internet to obtain information regarding CME
conferences offered by various organizations and educational facilities. 010 reviewed
registration fees for 4- and 5-day conferences to compare those costs with the costs MED
incurred when it presented its own CME conferences. 010 did not include lodging or travel fees
in its comparison because these fees would have been incurred for any CME conference that
MED personnel would attend.

010 attempted to compare the Department's methodology for complying with CME
requirements with those of similar Federal agencies. Specifically, 010 determined that the
Centers for Disease Control did not contract out for CME conferences. Also, an individual with
extensive knowledge of the Peace Corps stated that most of the medical personnel employed by
the Peace Corps are foreign and do not require the same continuing education requirements that
U.S. personnel must have. In addition, the Department's unique global requirements did not
compare with those of other Federal agencies, so 010 did not make a comparison.

OTO requested and reviewed all contract documentation available for CME conferences provided
from 2007-20 II. These contracts included conferences for both domestic and overseas training.
For those contracts awarded at overseas locations for logistical support at the venues, oro
requested that MED obtain the contract documentation from the hosting post. Although MED
was unable to obtain all of the contract documentation from the posts, MED was able to provide
funding documentation, purchase orders, and emails. oro also reviewed the justification and
approval for sole source contracts awarded for conference curricula to verify that the contracts
had been awarded properly. 010 reviewed all pertinent available documents, and no sampling
was performed.



                                           12
                                      UNCLASSIFIED
                                       UNCLASSIFIED


OIG conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that OIG plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for the findings and conclusions based on the audit
objective. OIG believes that the evidence obtained provides a reasonable basis for the findings
and conclusions based on its audit objective except that the scope of work was limited, as
explained, because contract files were not provided.

Use of Computer-Processed Data

OIG did not request or review computer-processed data during the audit. Therefore, it was not
necessary for OIG to test or assess the use of controls for computer-processed data.

Work Related to Internal Controls

OIG performed steps to assess the adequacy of internal controls related to the areas audited. For
example, OIG gained an understanding of the methodology for conference site selection and
discussed exceptions identified with bureau officials to better understand the reasons for the
exceptions that would indicate internal control issues. In addition, OIG gained an understanding
of the Department's policies and procedures and oversight related to contracting for CME
conferences.




                                               13
                                       UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                                      Attachment 2



                                                              United States Department of State

                                                             Office of Medical Services
                                                             Departmerzt afState and the Foreign Service

                                                              Washington, D.C. 20520

                                                               January 25, 2013

UNCLASSIF1ED
MEMORANDUM
TO:           OIG .   Ha~~iseI. Acting lnspector General
FROM:         MED -   oVr~n~r. M.D.
SUBJECT:      Report on "Audit of Office of Medical SclVice.c;; Contrdtting Pmctices for Continuing
              Medical Education"

The Office of Medical Services (MED) has reviewed the draft report, and appreciates the
oPporlunity to respond 10 the one and only recommendation. OUf reply to Recommendation I
follows:

Recommendation 1. 010 recommends that tbe Office of MedicaJ St:rviccs finalize and implement
procedures that require documentation and retention of support for the site selection for Continuing
Medical Education (eME) conferences in accordance with the ForC'iXIl Affairs MUll/wi (14 FAM
533).

Response: As noted in the report, MED acknowledges that while MED staff members were able
to fully explain the conference site selection proces..., there was no formal documentation
demonstrating thai the staff members had followed proper site selection procedures prescribed by the
FAM (14 FAM 533, "Conference Travel"; 14 FAM 533.4-2, "Conference Site" and "Conference
Site Selection Process") .

MED has fonnalized the conference site selection procedure, now codified as an ISO 9001 MED
policy document (#5()04). This procedure considers a minimum of three alternative sites, and
states that each ,.'onsidered site be selected on the ba....is that it would result in lower ovcrdll
conference costs and conference attendees' travel costs in conjunction with the other f<.tclors stated
arove and repealed <.ts follows:

           Geographical division so travel distances and costs can be reduced
           Cities with adequate hotel and meeting facilities in a secure setting
           Cities with reliable and frequent inlermllional air connections
           Cities in countries that have liberal entry visa requirements to allow entrance of LES
           medical providers and nurses who hold passports from countries all over the world

With the assistance oflhe respective Post GSa Procurement sections, as well as UAOM, MED will
"survey the COSl of conference facilities at each of the considered siles" and determine the potential




                                          14
                                     UNCLASSIFIED
                                              UNCLASSIFIED




cost to the U.S. Government for each of the allernative sites. The authorizing officer will document
the cost of each ahcrnativc confcrem.:e site, and retain a record of the documentation for every
conference held to the extent pos."ible. The authorizing officer will also "make the documentation
available for inspection by the Office of Inspector General (OlG). or for other interested parties."

Office of Medic-oJ SClViccs will implemcnllhese procedures that require documentation and retention
of site selection for Continu ing Medical Education conferences in ac<.:ordancc with the ForeiWI
Affuirs Malillul (14 FAM 533).

Should you have any questions. please direct them to Joseph Kenny. Executive Director. He
                             (b)(2)(b)(6)
may be reached on :!O:!-663-                or at(b)(2)(b)(6)@statc.gov.



cc:    DIG - Evelyn R. Klemsline. As.e;istanllnspector General for Audile;
       DIG - Denise Col chin, Division Director
       MED - Charles Rosenfarb. Deputy Medical Director
       MED/FSHP - Anne Saloom, FSHP Director
       MED/QI • Paul. Dolan. RN MPA
       MED/EX - Joseph A. Kenny, Executive Director~
       MEDIEX - Ac;sefaX. Kidanc, Deputy Executive Director
       AlEX - William Amoroso, Executive Director
       NLMlAQM - Cathy 1. Read, Director




                                                   15
                                              UNCLASSIFIED
